 Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




HOTLINE REFERRAL FOllOW-




               "RVIQ:S'



                          Richard P. Kusserow
                          INSPECTOR GENERAL
        '0


             .(Ii"dm         JANUARY 1991
                        OFFICE OF INSPECTOR GENERAL
The mission of the Offce of Inspector General (OIG) is to promote the effciency,
effectiveness, and integrty of programs in the United States Deparment of Health and Human
Services (HS). It does this by developing methods to detect and prevent fraud, waste , and
abuse. Created by statute in 1976, the Office of Inspector General keeps both the Secretar
and the Congress fully and curently informed about programs or management problems, and
recommends corrective action. The OIG performs its mission by conducting audits
investigations, and inspections with approximately 1,400 staf   strategically   located around the
countr.


                 OFFICE OF EVALUATION AND INSPECTIONS
This report is produced by the Offce of Evaluation and Inspections (OEI), one of the thee
major offces within the OIG. The other two are the Office of Audit Services and the Office of
Investigations. Inspections ar conducted in accordance with professional standards
developed by OEI. These inspections are typically short- term studies designed to determne
program effectiveness, effciency, and vulnerabilties to fraud or abuse.

This report, entitled "Hotline Referral Follow- " evaluates the procedures employed by each
of the Operating Divisions within HHS when processing the Deparent s Hotline referrals
that do not require a status report back to the Offce of Inspector General.

This report was prepared under the diection of Bar Steeley, Chief of the Health Care
Branch in Evaluation and Inspections. Parcipatig in the project were the following people:

Headquarters
Thomas A. Noplock Project Leader
Vicki A. Greene
Barbara Tedesco
Cynthia Selby
     HOTLINE REFERRAL FOllOW-





                     Richard P. Kusserow
                     INSPECTOR GENERAL




OEI- 12- 90- 01060                         JANUARY 1991
                                 EXECUTIVE SUMMARY

PURPOSE

The purpose of this study is to evaluate the procedures being employed by each of the
Operating Divisions (OPDIVs) within the United States Deparment of Health and Human
Services (DHHS) when processing the Deparent s Hotline referrals that do not require a
report back to the Office of Inspector General (OIG).

BACKGROUND

The Office of Inspector General (OIG) is responsible for conducting and coordinating
investigative activities related to fraud , waste , abuse, and mismanagement in DHHS programs
and operations. The OIG manages the DHHS Hotline, which receives complaints and
allegations of fraud , waste, and abuse. Incoming Hotline cases are reviewed and referred to
one of the five OPDIVs.

Pror to August 1989,   all Hotline referrals required a memorandum from the OPDIVs be sent
back to OIG within 60 days explaining actions taken on the case. These referrals are now
known as LTR- 21 cases. Effective August 1 , 1989, OIG adopted a new procedure which no
longer required OPDIVs to respond back to it on cases in which a follow up does not appear
to be necessar. These referrals, known as LTR- 22 cases, are conveyed to the appropriate
OPDIVs using the LTR- 22 cover letter. The OPDIV is then required to develop the case , take
any corrective action that they determne to be necessary, and maintain controls on these cases
so that a post-review of the actions taken can be done in the future.

We conducted a study to determne what control systems the five OPDIV s have in place to
handle the LTR- 22 cases, and to obtan the status of a sample ofLTR- 22 cases referred to
them durg the first three months of the new procedure.

FINDINGS

The Health Care Financing Administration (HCFA) Lacks Controls On LTR-22              Cases.


Forty-nine percent of HCFA cases could not be located. The HCFA Central Office does not
require any response from the Regional Offices (ROs) on the cases. There are no standards
across ROs for handling LTR- 22 cases. Some ROs maintain control over the cases referred to
them while others send them out to the Medicare contractors with no time frame for
completion or response back to the ROs. The average age of an open case was 166 days, and
the average length of time before the last action was taken on a case was 106 days.
Social Security Administration (SSA) Controls Its LTR-22 Cases From Central Office, But
Lacks Timely Follow-up Procedures On Open Cases.

The SSA has a system in place to control LTR- 22 cases. The SSA Central Offce requires its
components to respond to them with a final disposition of each case. However, it does not
follow up on open cases until thee months after a referral is made. The average age of
open case was 162 days, and the average length of time since any action was taken on a case
was 101 days.

The Office Of Human Development Services (OHDS), Public Health Service (PHS), And
Family Support Administration (FSA) Have Control Systems For LTR-21 Cases.

While they did not receive any LTR- 22 cases durng our study period, OHDS, PHS and FSA
log in the LTR- 21 cases at the Central Offce level , and control is maintaied over the cases
with due dates. Components respond back to the Central Offices with a wrtten final report.

RECOMMENDATIONS

The HCFA Should Institute Controls At Both HCFA Central Offce And At ROS.

The HCFA Central Offce should control cases sent out to their ROs by requirng     them to
respond within a specific time frame on the disposition of all cases. Central Office should
develop minimum guidelines for RO handling of Hotlne cases. Guidelines should include
requirng the ROs to have a uniform minimum set of controls on al cases that they send out to
the contractors as well as the ones they handle at the Regional Office level , and maintain the
OIG-issued control number on a log system.

The SSA Should Adhere To Its System Of Controls.

The SSA' s system for controllng LTR- 22 cases should be fully utiized. Time frames
established for follow-up should be adhered to and treated as a serious due date for an interim
or final response from their components. The SSA and its components should record and
maintan the OIG control number.

When OHDS, PHS, And FSA Begin To Receive LTR-22 Cases, They Should Maintain
Them Using The Same Control Systems That Are Currently In Place For LTR-21 Cases.

OHDS, PHS, and FSA should maintain any LTR- 22 cases that they receive under the same
control system as the LTR- 21 cases so that they may track and follow up on them.

SUMMARY OF COMMENTS

Four of the five OPDIV s commented on the draft report (the FSA did not offer comments).
They all concurd with the recommendations. The HCFA plans to develop uniform
guidelines for the regional offces, and has alady begun to implement procedures requirng
the regional offces to provide central offce with a status for each case within 45 days of
receipt. The SSA wil communicate to components the need for timely development and
response to SSA central offce. Both the PHS and OHDS plan to maintan the cases under the
same control system now in place for LTR-21 cases so that they may track their resolution and
implement corrective actions if necessar.




                                            111
                                           . . . . ..       ..
                                                            . .. ... .... .
                . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .                 . . . ... .. .. .. . . . .... .. . . . . . .. .. .. .. .. .. .. .. .. . .
                                                                          .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ... ..
                                                                                                                                     ................ ... .. ... ... .... .




                                           TABLE OF CONTENTS
EXECUTIVE SUMMARY

INTRODUCTION

    Background. . .
    Methods.




FI N DI NGS    ................................................... 6


    Health Care Financing Administration

   Social Security Administration

   Public Health Service,

   Family Support Administration and
   Office of Human Development Services. . .

RECOMMENDATIONS

COMMENTS.




APPENDICES

   Appendix A: Methodology and Sample Selection . . . . . . . . . . . . . A -

   Appendix B: Tables                      ...................................... B-


   Appendix C: Detailed Processing Procedures. . . . . . . . . . . . . . . . C -

   Appendix D: Detailed Comments on the Draft Report. . . . . . . . . . D - 1
                                        INTRODUCTION

The purose of this study is to exame the procedures being employed by each of the
OPDIVs within DHHS when processing the Deparent s Hotline referrals that do not require
a status report back to OIG.

The purose is   not to perform a qualtative review of the outcome of the Hotline referral cases
selected for study. It is to review and analyze the procedures and controls in place to track a
category of cases as they are referred from OIG, to OPDIVs, to Regional Offices (ROs), and
ultiately to the Medicar contractor or State that wil actually develop or " work" the case.
The category of cases that are the subject of this inspection are the more tyical or routine
cases that OIG no longer tracks themselves.

BACKGROUND

The DHHS is composed of five OPDIVs:

                      Offce of Human Development Services
                      Public Health Service
                      Health Care Financing   Admnistrtion
                      Social Securty Admnistration
                      Famy Support Admnistration
The OIG is responsible for conducting and coordinatig investigative activities related to
fraud, waste, abuse, and mismaagement in DHHS programs and operations, includig
wrongdoing by applicants, grantees, or contractors, or by HHS employees in the performance
of their offcial duties.

As par of their official duties, the Offce of Investigations (01) within OIG is responsible for
managing the DHHS/OIG Hotlne (Hotline). The Hotlne receives complaints and alegations
of fraud, waste, and abuse from agency employees and the public, and refers the information
to one of the five DHHS OPDIV s for furer       development, investigation ,   audit, program
review, or other appropriate action. The OIG cases come in the form of calls and letters to the
Hotline, as well as referrals from the General Accounting Offce (GAO) Hotline that are
related to DHHS programs.

Approximately 100 to 140 calls are received daily in 01 between the hours of
10:00 a. m. to 4:00 p. m. Approximately 80 percent of al calls are Medicare related, except
durg the fIrst four days of the month when the Social Securty checks come out, durng
which time 80 percent of all calls ar Social Securty related. Most of the Medicare calls are
complaits about physician      biling, with occasional hospita   biling complaits mied in. In
addition , 01 receives approximately 10 to 12 letters per work day. Most of these letters are
Medicare related.
All cases that Hotline operators receive are logged in , assigned an OIG case control number
and then screened to determne which    OPDN     should receive the case. (Only a very small
number of Hotline cases ar handled dictly in 01. For example, highly sensitive employee
cases may remai internal.

Pror to August 1 ,  1989, 01 reuired the OPDIVs to respond back to them within 60 days on
allreferrals with a memorandum explaining actions taen on the case. Under these
procedures, all Hotline referrals were held in 01 inventory as open cases until they received a
fmal disposition on the cases from the OPDIVs.

Office of Investigation s Change in Procedure

The 01 has gained much experience though managig the DHHS Hotline. This experience
has shown that they do not need to receive feeback from the OPDIV s on all Hotline cases.
In order to help reduce the admnistrative burden , 01 decided not to require the OPDIV to
respond back to them on cases in which 01 follow up does not appear to be necessar.

To implement this policy, effective August 1 , 1989, 01 began dividing the incomig Hotline
cases into non- tyical and routine cases. The non-typical cases are caled LTR- 21s , and the
routine ones are referred to as LTR- 22s (so named for the "cover letter- 21" or " cover
letter- 22" that transmits the case). This inspection focuses on the LTR- 22 cases.

The 01 applies the following guidelines to determne when to use the LTR-22 cover
memorandum:

      Use this LTR-22 procedure in   typical   program fraud cases, such as complaits
      that (1) a Social Securty disabilty beneficiar is gettig   payments ilegally
      because of concealed work activity; (2) an SSI recipient is getting benefits despite
      excess resources; (3) an AFC recipient is getting benefits despite support being
      provided by another person; or (4) a doctor biled Medicare for services not
      rendered or commtted an assignment violation. (Most Medicare biling
      complaits we get wil be handled this way.

      Do  not use the procedure if the complaint appears to involve (1) an HHS
      employee; (2) a contract or grant; or (3) some other element that may make it
      suitable for tracking to conclusion by the Hotline.

The OPDIVs must continue to respond to 01 within 60 days on the LTR- 21 cases, but do not
need to reply to OIG Hotline on the LTR- 22 cases. Upon referral to the appropriate OPDIVs,
the LTR- 22 Hotline cases ar closed out by 01. However, the OPDIV is still required to
develop LTR- 22 cases and tae any corrctive action that it determnes to be necessar,
includig referrng the case to an HHS/OIG Offce of Investigations Field Offce (OIFO) if
evidence of fraud or abuse is found.
 The body of the LTR- 22 (which is attached to all routine cases), contans the following
 instrctions to the OPDIVs:

       If development in accordace with established instrctions discloses substatial
       evidence of a crime, the complait should be referred to the appropriate OIFO.
       The referral should always bear the OIG Hotline complaint number fwhich is the
       unique number attached to each case J as that number is the key to tracking cases
       through our control system.

       Your offce need not reply diectly to the OIG Hotlne on this complaint. It is
       assumed you wil take all actions necessar to resolve the issues, including
       referral to an OIFO, if appropriate. 
 It is important, however, that you maintain
       controls on the case, so that a post-review of the actions taken can be done in the
      future      (emphasis added).

It is the last sentence of OJ's letter to the OPDIVs that contains the inspection issue. Simply
put, 01 is concerned about how the OPDIVs are handling the LTR- 22 cases and whether or
not there is a system of controls being maintaned. As evident in the letter, 01 assumes that
the OPDIV wil maintan its own controls on cases, even though they do not need to provide
01 with furher information about the cases. Additionally, OPDIVs are advised to include the
OIG control number in their tracking system so that there is always a common varable for
identifying and reportng on about the case. (See Figure 1 for a diagram of the case flow.

METHODS

There was a dual approach to determning what system of controls OPDIV s have for handling
LTR- 22s. One was to conduct a general surey for each of five OPDIVs (and each often ROs
within HCFA) to determe what elements were contained in their control systems. The other
was to determne the status of a sample ofLTR- 22 cases referred to OPDIVs durng the fIrst
thee months ofthe LTR- 22 procedur. (See Appendix A for Sampling Methodology.

The series of general, procedural questionnaies began with an interview of 01 officials to
determne how they refer Hotline cases to OPDIVs. We then interviewed HCFA and SSA
Central Offce Hotline offcials to obtan detaled descriptions of their procedures for handling
LTR- 22 cases. A similar interview guide was admnistered to FSA , PHS, and OHDS over the
telephone.

The sample of LTR- 22 cases chosen for our review contaned cases from only HCFA and
SSA.

To determe the status of each HCFA case, we provided each Regional Offce with a list of
Hotline cases that Central Offce sent to the RO durng the three month study period. We then
conducted a telephone interview with each of the ROs to obtain the status (open , closed, or
unkown) of each case. We also asked for the date they received each case, the date the case
was closed, and the date the last action was taken on the case.
To determe the status of SSA cases, we performed an on site review of 22 cases in Central
Office. We collected the same information on each case as we did for HCFA cases. For six of
SSA cases, Central Offce contacted the component that was handling the case to obtain its
status and the date the last action was taen.
                       TR- 22 CASE FLOW

  GAO referrals               Beneficiary telephone calls Beneficiary letters




                                  I OIG HOTLINE



FSA Office        OHDS               SSA Division     HCF A Office    PHS Office
 of Family       Executive            of Internal      of Budget      of Resource
Assistance      Secretariat            Control       Administration   Management




10 Regional     4 Program            1350 District    10 Regional     10 Program
  Offices     Administrations          Offices          Offices        Agencies




   State                                              Contractors
 Welfare
 Offices
                   **




                                                                  FINDINGS


Health Care Financing Administration (HCFA)                                    Lacks Controls On L TR- 22 Cases.

At each phase in the Hotline referral process when cases are sent from one office to another
there is lack of follow-up and controL The cases are sent from HCFA Central Office to the
ROs, and in tur to the Medicare contractors. As wil be explained below, there is a lack of
control and consistency in procedure at each stage of the process.

There are no Control Procedures in HCFA Central Office for LTR-22 Hotline Cases Sent
Out To ROs.

Once cases are sent out to ROs , HCFA Central Office does not require the ROs to respond
back to them on the status of the cases. The HCFA Central Office records each case and then
sends them out to the ROs without requirng any interim or final report.

Currently a study (begun in December) is being conducted by the Office of Budget
Administration to determne what type of system should be instituted to track and analyze the
cases.

The HCFA was unable to locate almost half of the Hotline cases in the sample.                       The ROs were
unable to report the status on 49 percent (81) of the cases in the sample.

Twenty-nine percent (48) of the cases were still open. 
                  The average number of days in
inventory for open cases was                     165. days , and the average number of days since the last action
was taken on a case was 106 
                    (See Table 1).

                                                                  TABLE 1


                                       HCFA Sample of Cases

                                                                   Percent                 Number

                   Unable to Locate                                49%

                   Open                                            29%

                   Closed**                                       22%

                        totals:                                   100%                   166

                   *Average number of days in inventory:            165.
                   Time since last action taken: 106.

                        Average number of days to close a case:          71.
                   (See Appendix B)
There are no Standards in HCFAfor Handling LTR-22                     Hotline Cases.


The HCFA Central Offce does not impose any guidelines on the ROs for handling the hotline
cases, and is unaware of what procedures ROs have in place for handling and controlling the
cases. In addition , there are no central policies concerning which cases would be appropriate
to handle at the RO level and which at the contractor level , which data fields to record , how
long the ROs should maintan information on the cases , or how often the ROs should require
status reports from the contractors.

There is no consistency across ROs in processing OIG Hotline cases.    The Hotline referrals
are handled differently in each of the ten ROs. Each RO independently determines the extent
and type of control system it wil have for the Hotline cases. Controls var from very firm to
no controls at al. Some ROs do not keep a record of the cases sent out to the contractors,
while others maintain a copy of the case file and put time frames on the cases for interim or
final reports from the contractors.

Six ROs log the cases in when they receive them. Three ROs do not have a log in system , and
one logs in only the cases that they work on within the RO.

In their letter to the OPDIVs, 01 recommends that their case number be recorded for
identification and tracking of each case. Four of the ROs record the OIO- issued case control
number in the log. The varables that ROs usualy record (if there is a log- in procedure) are
(1) beneficiar or complainant name, (2) the date the case was received , and (3) the date the
case is due for completion. One RO records 16 varables , but not the 01 case number.

Three of the ROs review each case internally to determne whether to have the contractor
handle it , or to resolve it within the RO. The other seven ROs automatically send most or all
cases out to the contractors for development. Cases that are handled at the RO level tend to be
more routine , such as beneficiar questions about the Explanation of Medicare Benefits
(EOMB), and cases that do not appear to involve fraud or abuse.

Seven of the ROs require a final and/or interi response from the contractor; the other three
almost never receive a report on the cases forwarded to the contractors. In most cases
responses and updates flow in as the contractor completes the case and/or sends a letter to the
complaiant, with no specific time by which the contractor must provide the RO with
information. Only three ROs set a specific time frame for interim and final reports from the
contractors. Two of these maintain very close contact with the contractors while the case is
pending. (When contractors report to the RO , they typically send the RO a copy of
correspondence sent to the original complainant or beneficiar.

All seven of the ROs that receive information on the final disposition of cases from the
contractors state that they review the complaint and action taken to determne the
reasonableness, responsiveness, and thoroughness of the action taken by the contractor.
Two of the ROs that do not log in the cases still receive final status reports from the
contractors. However, unless they receive a report from the contractor, these ROs have no
way of knowing if cases were ever handled , since they do not have a tracking or log in system.

Most ROs maitain a completed fie on Hotline cases that come though their offce. Eight
ROs keep copies of the original case from 01 along with any work they have done internally,
and copies of any information on the case that the contractors send in. The two ROs that do
not maintain completed fies on Hotline referrals also do not require contractors to provide
them with updates or final reports.

None of the ROs seemed to be aware that there was a change in procedure as of August 1
1989 , creating a category of cases that does not require a response back to 01. One RO
thought that the new procedure was requirng them to begin sending responses to HCFA on
some cases, and that previously no responses were required. Thus, the ROs were universally
unaware of the distinction between LTR- 21s and LTR- 22s , and were unfamiliar with the
terminology.

After the difference between the two types of cases was explained to each RO , eight ROs
reported that they do not handle the two types of cases any differently. The fact that they are
not handled diferently is not necessarly an indication of the quality of the control system. In
some ROs, they are all handled with the same tight controls , and in others they are all sent out
to the contractors without being logged in.

Cases that are sent outside HCFA' s system or that move from region to region are not
maintained in RO or Central Office control system. Cases that are sent to " outside agencies
(such as a State agency) are closed from a RO perspective. The ROs (even those that do
maintan control systems) that have had cases sent somewhere other than a HCFA contractor
do not require any update or final response from the agency. Most ROs reported that if cases
were sent to them erroneously, they send them to the correct RO without notifying Central
Office. (See Appendix C for a detaled description of HCFA' s procedures.

Social Security Central Office Maintains A Control System On L TR- 22                Cases
But Lacks Timely Follow-up.

Most of the Hotline cases that SSA receives are allegations of program fraud involving people
collecting disabilty who are reported to be working, or are Supplemental Security Income
(SSI) cases.

The SSA has a control system. 
Within SSA , the Division of Internal Control and Security
(DICS) handles DHHS Hotline referrals. When cases arve from the OIG , they are logged in
and each case is copied and maintained in a fie. Currently the log- in system is manual , but
there are plans to automate. An index card is created and filed by beneficiar name (the OIG
case number is not recorded).
            **




Initial case development is done centrally on each case before sending it out to one of SSA
components for further development. (If a Hotline report clearly sets out the facts with
enough specific information to indicate that fraud is probably involved , DICS immediately
refers the case to 01.)

Social Security maintains an open fie on each case referred to components. Components
have six weeks to respond to Central Office. There are approximately 1 300 Field Offices , 8
processing centers, and other offices where the case might be referred.

Although SSA components are given six weeks to respond back to DICS in the transmittal
memo, Central Offce does notfollow up until about three months after the case is sent to the
component.

The average number of days that a Social Securty Hotline case was in inventory was 161.9
days. The average length of time since any action was taken on the open cases was 100.
days (see Table 2).

                                                           TABLE 2


                           Social Security Hotlne Cases
                                                            Percent           Number

            Unable to Locate
            Open                                           55%

            Closed**                                       36%

                 totals:                                   100%

            *Average number of days in inventory:            161.9     days

            cases). Time since last action taken: 100. 9             days

            cases). Five of the twelve open cases           were referred
            directly back to OJ because they involved Social
            Security Number fraud.

                 Average number of days to close a case:             38.



In October 1987 , SSA Central Offce developed guidelines to institute standardized handling
of Hotline cases throughout  SSA. The guidelines consist of highly detailed instrctions on
how DICS and the components should respond to the public and better handle the cases. The
guidelines also instrct the components how and where to refer cases for criminal
investigation.
Except for the fact that the LTR- 21s go back to 01 when they are completed, LTR- 21s and
LTR- 22s are handled the same by SSA and its components. Components are required to
respond to Central Office on the final disposition of all cases in wrting, regardless of whether
SSA has to report back to 01 on the case.

When a case comes back in , SSA Central Office looks over the file to make sure that all of the
issues have been handled, and then fies the completed case. It took SSA an average of 38.
days to close the 8 cases that were closed.

Public Health Service (PHS), Family Support Administration (FSA), And Office
Of Human Development Services (OHDS) Have Control Systems For L TR-
Cases.
Although there were no LTR- 22 cases referred to PHS , FSA , or OHDS during the three month
study period , they were interviewed to determine how they would handle DHHS Hotline cases
for which no response back to 01 was required. Therefore , information provided by the these
three OPDIVs is necessarly based on how the LTR- 21 cases (which require a response to 01)
are handled. Only Central Offices that handle 01 Hotline cases were interviewed; the ROs
were not contacted in the three OPDIVs that did not receive any of the study cases. (See
Appendix C for a more detaied description of SSA' s procedures.

All three OPDWS state that they would handle LTR-22s under the same control system.   The
PHS , OHDS , and FSA log in cases as they arve from 01 , require a response back from the
components within a specified time period, and all record the OIG case number. Each of the
three OPDIVs report that they would handle the LTR- 22 cases under the same control system
as LTR- 21s are handled if/when they begin to receive LTR- 22s (see Appendix C for a detailed
review of each OPDIV' s procedures).
                                 RECOMMENDATIONS

The HCFA Should Institute Controls At Both The HCFA Central Office And At ROs.

The HCFA Central Offce should control cases sent out to their ROs by requirng    the ROs to
respond within a specific time frame on the disposition of all cases. Central Offce should
develop minimum guidelines for RO handling of Hotline cases. Guidelines should include
requirng the ROs to have uniform minimum set of controls on all cases whether they are sent
out to the contractors or handled at the RO level , and maintaining the OIG control number on
a log system.

The SSA Should Adhere To Its Systems Of Controls.

While SSA has an established system in place to control LTR- 22 cases , this system should be
fully utilized. Whatever time frames are used should be adhered to and treated as a serious
due date for an interim or final response from their components. SSA and its components
should record and maintain the 01 case number.

When OHDS, PHS, FSA Begin To Receive LTR-22 Cases, They Should Maintain Them
Using The Same Control Systems That Are Currently In Place For LTR-21 Cases.

The three OPDIVs that have not received any LTR- 22 cases have control systems for the
LTR- 21 cases. These three OPDIVs should maintai any LTR- 22s that they receive under the
same control system as the LTR- 21 cases so that they may track and follow up on them.
                                       COMMENTS


Of the five Department of Health and Human Services OPDIV s, the Health Care Financing
Administration , Social Security Admnistration , Public Health Service and Office of Human
Development Services commented on the draft report. The Famiy Support Administration
did not provide comments. All commenters expressed support for the findings , and concuITed
with our recommendations.

The HCFA plans to develop uniform guidelines for the regional offices , and has already begun
to implement procedures requirng the regional offices to provide central office with a status
for each case within 45 days of receipt. The   SSA  wil communicate to components the need
for timely development and response to SSA central offce. They wil also send out reminders
to every component regarding the required timeframes for follow-up. Both the PHS and
OHDS plan to maintain the cases under the same control system now in place for LTR-
cases so that they may track their resolution and implement corrective actions if necessary.

In Appendix D , we present the full text of the OPDIV comments.
                                         APPENDIX A

                       METHODOLOGY AND SAMPLE SELECTION

The total number of Hotline complaints recorded by 01 durg 1989, while the new LTR-
procedure was in effect, is as follows:

      Month                Phone Calls                        Letters
      August                    770                            357
      September                 586                            189
      October                   799                            164
      November                  914                            139
      December                  506                            116

Durig the review period of August through October, 01 made 23 LTR-        22 referrals to   SSA.
This total is composed of 5 referrals from GAO , 7 referrals received by telephone , and 11
referrals received by mai. Since one of the SSA cases was transferred to HCFA , 22 of the 23
SSA LTR- 22 cases were reviewed on site at  SSA  Central Offce.

Durg the review period, 01 made 278 LTR- 22 referrals to HCFA. This total is composed of
3 referrals from GAO, 5 referrals received by telephone and 270 referrals received by mail.

There were no LTR- 22 cases referred to FSA , OHDS , or PHS during the three month review
period.

Sampling Methodology for HCFA Cases

The universe consists of all LTR- 22 cases referred to the OPDIVs from the period August
1989 though October 1989. There were 278 LTR- 22 referrals to HCFA and 23 LTR-
referrals to SSA. Since the universe of referrals to SSA was small , all of their cases were
sampled.

Sample size estimates are based on the assumption that 50 percent of the cases are stil open
since no information was available on this frequency. Assuming that the frequency of open
cases is 50 percent , a sample of 166 cases provides 95 percent assurance that the true value
wil lie within 5 percentage points of this estimate. A response rate of 100 percent was
achieved for this telephone survey.

To obtan the sample of 166 cases, a systematic sampling approach was used. Three random
starting points were chosen and every fifth case from each random start thereafter was selected
from a list of HCFA cases. The list of cases was provided by 01 from the file they maintain.
Data Collection

We conducted telephone interviews during the week of March 12 to determine the status of
166 HCFA LTR- 22 cases, or 60 percent of the universe. The 166 case sample is composed of
2 received from GAO, 3 received via telephone , and 161 received by mail.

The HCFA case files were at the ROs or the fiscal contractors (carers or intermediares). The
HCFA provided the following information for each of the 166 cases to be sampled:

                  Name of beneficiar.
                  Social Securty Number.
                  HCFA RO that the case was sent to.
                  Date that the case was sent to the RO.

In addition to determning the status on specific LTR- 22 cases , each of the five OPDIVS was
interviewed to determine what type of systems exist at the Central Office level to control
LTR- 22 cases. A discussion guide was administered in person to    SSA  and HCFA by
interviewing the component responsible for the Hotline. The OHDS , PHS, and FSA was each
mailed a discussion guide and then interviewed by telephone.




                                             A- 2

                                           APPENDIX B

                                               Table A
                               Survey of       166 HCFA Cases

             Cases                         Cases           Status
Region                                                              Total
             Closed                        Open           Unknown
                             100




    VII

   VII


                             100

 Totals                                                               166

Percentage totas are weighted averages.

                                      Table B
A verage Number            of   Days HCFA Cases Were In Central Office

              Region                   Cass                Days


                                                          18.4
                   III                                    14.
                                                          16.3
                                                          21.4
                                                          20.
                  VII                                     N/A
                  VIII                                    25.
                                                          24.


                  Totals               164                 18.
                                                      weighted average

    N/A = Computation is Not Applicable.

    NOTE: The time between the dates that 01 referred the cases to HCFA
    and the dates that HCFA fOlwarded the cases to the ROs.
                                         Table

        A verage Number 
           of   Days      To   Close HCFA Cases

           Region                           Cases                     Days
                                                                     19.
                                                                     95.
              III                                                    60.
                                                                     N/A
                                                                     77.
                                                                     49.
           VII                                                       N/A
           VIII                                                      69.
                                                                     99.4
                                                                     56.
            Total                                                     71.9
                                                                 weighted average

NOTE: The tie between the dates that 01 referred the cases to HCFA
 and the dates the cases were closed.


                                         Table D
A verage Number             of   Days For ROs            To   Close HCFA Cases

          Region                           Cases                      Days
                                                                     14.
                                                                     70.3
             ill                                                     72.
                                                                     N/A
                                                                     57.
                                                                     31.0
          VII                                                        N/A
          VIII                                                       50.
                                                                     77.
                                                                     47.
           Total                                                      56.
                                                                 weighte average


NOTE: The time between the dates that HCFA forwarded the cases to
the ROs and the dates that the cases were closed.
                                        Table E
              Aging HCFA Open Cases Average Number of Days

                    Region               Cass                    Days
                                                                 N/A
                                                               167.3
                     III                                        N/A
                                                               154.4
                                                               182.2
                                                                 135
                    VII                                         N/A
                    VIII                                        N/A
                                                               163.3
                                                                N/A
                    Total                                        165.

         NOTE: The time between the dates that 01 referred the cases to HCFA
         and the dates of the interview to obtai the survey inormation.



                                        Table F
Last Action Taken            On   HCFA Open Cases Average Number of Days

                    Region               Cases                   Days
                                                                N/A
                                                               103.
                     III                                        N/A
                                                               118.
                                                               104.


                    VII                                         N/A
                    VIII                                        N/A
                                                               104.
                                                                N/A
                    Total                                        106.
                                                            weighted average

         NOTE: The time frm the dates of the last actions taen on the cases to
         the dates of the interviews.




                                         B-4
                                        APPENDIX C

      DETAILED PROCESSING PROCEDURES FOR LTR-22 HOTLINE CASES

Health Care Financing Administration



Within HCFA , the Office of Budget Admnistration (OBA), Management Planning and
Analysis Section , Management Analysis Branch handles the Hotline referrals. When OBA
receives 01 Hotline cases, they are logged in using a dual system of index cards. One is a
numerical file with the cases in order by 01 case number. The other is fied by beneficiar or
name of person reportng the alleged complaint. Both of these card files are cross referenced
to each other and contain the date the case was sent out to the RO. Each case is also recorded
on a paper log with case number, the date HCFA received the case , and whether the case was
received from GAO Hotline.

After the case is logged in , it is sent to one of ten ROs. The HCFA' s policy is to send the
cases out within one week of receipt in Central Office. There is no preliminar research
conducted on the cases within HCFA Central Office prior to sending them out to the ROs.
Central Offce maintais a copy of the LTR- 22 case as it was sent from 01 , and places them in
a fiing cabinet along with the LTR- 21 cases.

In most of HCFA ROs, the Beneficiar Services (or Program Services) Branch within the
division of Medicare handles the Hotline referrals. Initially, the cases go to the Regional
Admnistrator for each RO. From there, they are forwarded to the Beneficiary Services
Branch within the RO for processing.

Five of the ROs maintai their log in/tracking systems on computer (usually on DBASE llI+).

For the most part, the carers, intermediares, and PROs directly send cases to an OIFO if
there is potential fraud and abuse found in the course of developing a Hotline case. In six
ROs, the contractor determnes if a case should go back to 01 for investigation and possible
prosecution.

One RO is in constant close contact with offcials from 01 , who are located in their building.
In some cases this RO refers cases to 01 , and in others the contractors refer them.

It is reasonable to hypothesize that the ROs that handle cases in their immediate office
determne at the RO level whether to send the cases to 01 , and those that send all the cases to
contractors have the contractor refer potential fraud/abuse cases to an OIFO. However, two
ROs that send nearly every case through to the contractor have the contractor send the case
back to the RO if potential fraud or abuse is found , and the RO decides whether to send it to
OIFO.




                                              C - 1

Three ROs knew they had received some cases that required a response back to HCFA Central
Offce (and in     tu
                   to 01) durng the thee month study period. The remaider of the ROs
were unsure about receiving any cases for which a response to HCFA Central Offce was
required.


Social Security   Administraton

Within SSA , the Division of Internal Control and Securty (DICS) handles DHHS Hotline
referrals. When cases arve from 01, they are logged in , and each case is copied and
maintaned in a fie. Curently the log- in system is manual, but there are plans to automate.
An index card is created and fied by beneficiar name (01 case number is not recorded).

Initial case development is done centrly before sendig each case out to one of SSA
components for furer development. If a hotline report clearly sets out the facts with enough
specific informtion to indicate that fraud is probably involved, DICS imediately refers the
case to 01.

If there is enough information in the letter or cal from the beneficiar, DICS wil    attempt to
locate Social Securty Numbers and Master Beneficiar Record or Supplementa Securty
Record records for the individual(s) being reported. Based on these records along with the
information supplied by the correspondent, DICS wil either dispose of the case as " no action
necessar " (e. g., it turs out that the person reported as not disabled but receiving benefits has
never received disabilty benefits), or wil refer it to the appropriate component for further
development It is sometimes determned with a phone call to a component that a case can be
closed, but in a majority of cases, a referral to an SSA component is made for case
development.

If an SSI situation is involved, the case is referred for action diectly to the servicing field
offce. If it is a disabilty case, it is referred to the Integrty Section in the Offce of Disabilty
Operations (ODO). If the case involves a Social Securty Number problem , it is referred back
to 01. Additionaly, there are 1 350 Distrct Offices, six program service centers, or the Offce
of Central Records Operations where the case might be referred.

In October 1987, SSA Central Office developed guidelines to institute a more standardized
handling of hotline cases thoughout SSA. The guidelines consist of highly detailed
instrctions on how DICS and the components should respond to the public and better handle
the cases. The guidelines also instrct the components how and where to refer cases for
crinal investigation. If a component finds evidence of fraud, the component sends the case
diectly to 01.

Public Health Service



The Offce of Resource Management (ORM) within PHS receives DHHS Hotline cases.
Once received by ORM , the cases are sent to one of ten PHS agencies. Each case is logged in
and stored on a computer with the 01 control number and the date the case was referred to an
agency. A due date of 45 days past the received date is assigned to the case. When the case is
closed, the date closed is added to the log along with a brief description of the case and its
disposition.

The agencies respond back to ORM with a memorandum or an investigative report. When
final cases come back to Central Offce, they perform a qualitative review to ensure that the
agencies have adequately handled all allegations. If a porton of the case is incomplete , it is
sent back to the agency or the agency is required to issue a supplemental report to Central
Office. The PHS Central Offce, not the agency, maes the determnation if a case should be
referred to 01 for investigation.

Completed fIes are maitained in PHS Central Offce. They contai the original 01 case,
transmittal memorandum sending the case to the agencies, the agency response, and the
Central Offce closing memorandum.

The PHS report it would handle LTR- 22s the same as LTR- 21s.


Family Support Administration

Practically all of DHHS Hotline cases sent to FSA involve welfare fraud, and are handled by
the Offce of Famly Assistance (OFA) within FSA. The OFA maintans a paper control log
indicating which of the ten ROs each case was sent to, the beneficiar name, and 01 case
control number. A cover memoradum is sent along with the case to the RO requesting a 60
day response time on each case.

When the ROs receive 01 cases from OFA , they send them out to State welfare offices for
development. The ROs place a 60 day control on the cases sent to the State, but it usually
takes longer than 60 days to complete a case and respond back to the RO with a fmal report.
Some ROs receive interim reports on the cases.

Once a case is completed, the RO sends a memorandum to the Central Offce (OFA) detaiing
the action taken on the case. Often complaints ar not substantiated, in which case the Central
Offce is notified by a phone call. If evidence of welfar fraud or misuse of funds is found,
the ROs refer the case to an 01 field offce for investigation.

When OFA receives the final disposition on a case, they review the initial referral and the
response for completeness, and then close out the case on the log. The OFA has never had to
send a case back to the ROs for additional work. Completed copies of 01 case files are kept
for several years; fIes exist back to about 1986.



                                              C- 3

The OFA report it would not handle LTR- 22 cases any differently from LTR- 21 Hotline cases.

Office of Human Development Services

The OHDS records all incomig DHHS Hotline cases on a computer fie with the 01 control
number, beneficiar/complainant name, and unit the case is assigned to. Each case is given a
cover memoradum and a two week due date. Most of the cases are handled in the Central
Offce.

Some cases are forwarded to one of the progrs within OHDS to be developed. Control
over cases sent out is still maintaned by Central Offce with a due date. If a program
component determnes that a case should be forwarded to 01 , it wil send the case to Central
Office for referral to 01.

When a case is completed, the components respond back in wrting, and Central Offce
conducts a qualitative review to ensure that the case has been handled properly.

The OHDS reports it would not handle LTR- 21 and LTR- 22 cases any differently.




                                            C - 4

 APPENDIX D


OPDIV COMMENTS





     D ­

( ?

+......                                         &.                                                ,.-   ... "   ,',


                                                                                                                 .o:., k/...
                                                                                                                               ~~~



                                                                                                                                         ?t



                                                                                          Health Care
               DEPARTMENT OF HEALTH                  HUMAN SERVICES                       Financing Administration


                                                                                          Memorandum
    Date OCT I 6 . 1990
   From Gai R. Wilensky, Ph. D. (\,. '\
              Adtrator tV-
    Subject                                                             " (OEI- 12-9001060)
              OIG Draf           Report: ' 'Hotle    Referral Follow-


              The Inpector General
                                                                                                                      C"             Ci ""
                                                                                                                                     ,. ""
                                                                                                                                     2: am
              Offce of The Secreta                                                                                    ex             f8 :z 




                 We have reviewed thi draf report which focuses on the controls and gude
                                                                                         Jir;
              governg HCFA follow-up to Offce of the Inpector Genera (OIG)                    hotle ;;
              referral. The report concludes that extig HCF A centr and regiona offce eX
              controls and gudelies are inufcient and contrbute to untiely
                                                                            responses to
              referr. OIG recommends that HCFA control caes sent to the
                                                                            regional offces by
              requirg the regions to respond withi a specifc tieframe and that HCF   A centr
              offce          minim um gudelies for regional offce hadlg of the referr.
                     establish




                 We concur with OIG' s          fidigs and have addressed the specic
              recommendations in the          attachment. We appreciate the
                                                                            opportty to         review thi

              draf report. Please advieus if you concur with our position on the report
              recommendations at your earliest convenience.


              Attchment




                      PDIG
                      DIG­
                      DIG­
                      DIG­
                      AIG-
                       OGC/IG
                       EX SEC

                       DATE SE
                                            J OIl'!


                                                                                         :::i
        ..                -,,   .. , ,)-   " , -.   .                                          ..,   '''. ''..   ,..
                                                                                       h" '"                           ,,C/'




             Comments of the Health Care Financing Administration (
                 on the OIG Draft Report - ' Hotline              Referral Follow-up
                                   OEI- 12- 90-01060



OIG Recommendation Number

HCF A Central Offce should      control cases sent out to the Regional Offces (ROs)

by requig the regions to respond withi a specifc tieframe                    on the disposition of
al caes.



HCF A Response       AGREE

Based on the results of an internal study of this function, HCF A has implemented
procedures requirig the     ROs to acknowledge receipt of cases from CO withi
10 days. ROs are required to provide a status of disposition for each cae to
withi 45 days of receipt of the referral. CO staf curently maitai a control
system to track and measure the tieliess of RO responses.

OIG Recommendation Number 2:

HCF A Central Offce should develop minimum guidelines for regional handlig      of
Hotline cases. Guidelines should include requiring the regions to have a uniorm
minimum set of controls on all cases that they send out to the contractors as well
as the ones they handle at the regional offce level, and to maintain the Offce of
Investigations control number on a log                  system.


HCF A Response       AGREE

We concur and will develop uniform RO guidelines.
"( , ''
                                               --                                             "".
                                                                                                       .. "

           "'V      lS.


                            DEPARTMENT OF HEALTH &. HUMAN             lfVCcfS          Social Securitx Administration


       :."'''dJa            Refer to:
                                                                                       Memorandum
                            . S

              Date:

              From:
                            C mmission                      cial Security

                 Subject:     ffice of Inspector General Draft Report,          "Hotline Referral
                            Follow-Up" (OEI-12-90-01060) --INFORMTION
                   To:      Mr. Richard P. Kusserow
                            Inspector General



                            Attached is the response to your draft report.           If we can be of

                            further assistance, please let us know.


                            Attachment:
                            SSA response





                                                                                                                    c:;
                                                                                                              G) 01 rn

                                                                                                              iJ 0
                                        IG
                                                                                                              8::
                                                                                                                    .. m
                                        PDIG                                                                        U) c:

                                                                                                                    rn
                                        DIG- AS
                                        DIG-
                                                                                                                    (J\.
                                        DIG- QI                                                                     ;:J
                                        AIG-   MY -­
                                         OGC /IG
                                         EX SEe:
                                         DAn
COMMENTS OF THE SOCIAL SECURITY ADMINISTRTION ON THE OFFICE OF
INSPECTOR GENERAL DRAFT REPORT. "HOTLINE REFERRL FOLLOW-UP"
(OEI-12-90-01060)

Office of Inspector General (OIG) Recommendation


The Social Security Administration (SSA) should adhere to its

systems of controls. While SSA has an established system in

place to control LTR-22 cases, this system should be fully

utilized.  Whatever time frames are used should be adhered to and
treated as a serious due date for an interim or final response

from their components. SSA and its components should record and

maintain the Office of Investigations (OI) case number.

SSA Comment


We concur. We will include in all future referrals to components

a statement addressing the seriousness of the controls and the

need for timely development and response to the SSA Systems

Securi ty Officer. We will also send out reminders to every

component regarding the required timeframes for follow-up.
Concerning the use of the OI case number, we were already

recording and maintaining the OI case number on all referrals

when the inspection was performed.

                                                        Ofice of
                                                        Human Development Services

                                                        Asistant Secretary

                                                        Washington DC 20201-01




TO:          Richard P. Kusserow
             Inspector General

FROM:        Assistant Secretary
               for Human Development Services

SUBJECT:     Comments on Draft Report: "Hotline Referral Follow-Up,
             OEI-12-90-01060

Thank you for the opportunity to review the draft report titled

"Hotline Referral Follow-Up.   We note that the report describes

the control system established by the Office of Human Development

Services (HDS) for tracking the Hotline cases we currently
recei ve 


Until now , HDS has only received cases where a memorandum is

required to be sent back to your off ice wi thin 60 days explaining
actions taken on the case (so- called LTR-21 cases). When HDS
begins to receive cases where no further contact with your office

is required (LTR-22 cases), please be assured that we will

maintain these cases under the same control system we now use for

LTR-21 cases.
If you have any questions or need further information , please

contact David Bunoski , Acting Director of the HDS Executive

Secretariat   , on 
   24S-31760


                                   fli

                                         Mary   Gall
                                                                 . ,.   ' ;. .. .- ', .- j..
                                                                                . ;                                          . "'''   '''   . . . . .. .""'- --. -.
                                                                                                                         - -- -- -- -- -- -- - - --




                           DEPARTMENT OF HEALTH AND HUMAN SERVICES

         SE 2 I 
          190

       Assistant Secretary for Health


       OIG Draft Report                         Hotline Referral Follow- up,
       OEI-12-90-01060
       Inspector General , as



        his i s to p r 0 v ide 0 u r co mm en t s on the sub j e c t a I G d r aft
       inspection report. The draft report examines the procedures

       employed by each Operating Division within HHS in processing the

       Department s Hotline referrals which do not require a response
       OIG (called LTR-22s).
       Although PHS did not receive any LTR-22 hotline referrals during

       the )- month period studied by OIG, we reported to your staff that
       we would handle the LTR-22 hotline referrals in the same manner

       in which we handle the LTR-21 hotline              The LTR-21                              referrals.
       hotline referrals require PHS to report to  OIC on the actions

       taken to address the allegations contained in the hotline

       referrals.
          e 0 n cur wit h the d r aft r e po r t ' s r e co mm end a t ion t hat w hen PHS
       begins to receive LTR-22 cases, that we include them in the same

       control system currently used for the LTR-21 cases so that we may
       track their resolution and implementation of corrective action

       as appropriate.


       Since the completion of the OIG study, we have received six
       LTR-22 hotline referrals. Two of the six have been resolved.
       These referrals have been treated in the same   anner as those

       which require a response to OIG. They have been logged into the
       PHS Hotline Control System , a timeframe of 45 days was

       established for their resolution , and the file includes or will

       include a brief description of the hotline referral and its

       disposition.

                                                                                          " eJ.J i:

                                                    James O.               Hason , H.                   Dr.
       cc:
       E S / P liS

       ASH
       01- , Rm. 17- 2'5, Parkla..,n
       o H.         RIa.        1 7 A - 1 3 , Par    1 a \" n
       DFt1 , Rm. 17A-1J , Par                       lawn
                    D' ,   :f                                   O I: p


                                                                                               7: Q
l( V                               :I                                              r:::

                                                                                                *U. S. GOVERNMENT PRINTING OFFICE: 1989- 622' 581
